No. 20-713

3n Xbe

'upreme court of the Einiteb iptate5
ROSA ELBA VENTURA DE PAULINO,
Petitioner,
V.

NEW YORK CITY DEPARTMENT OF EDUCATION,
NEW YORK STATE EDUCATION DEPARTMENT,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Second Circuit

PETITION FOR REHEARING

Rory J. Bellantoni, Esq.
Counsel of Record

BRAIN INJURY RIGHTS GROUP, LTD.
300 East 95th Street, Suite 130
New York, New York 10128
(646) 850-5035
rory@pabilaw.org
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

1
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

PREAMBLE

1

PETITION FOR REHEARING

2

THE PETITION FOR REHEARING SHOULD
BE GRANTED

11

REASONS FOR REHEARING

13

CONCLUSION

13

CERTIFICATE OF COUNSEL

14

11
TABLE OF AUTHORITIES
Supreme Court Opinions

Page(s)

Florence Cnty. Sch. Dist. Four v. Carter,
510 U.S. 7, 114 S. Ct. 361 (1993)

4

Honig v. Doe,
484 U.S. 305 (1988)

1, 2, 3, 11

Sch. Comm. of Burlington v. Dep't of Educ ,
471 U.S. 359 (1985)

2, 11

Second Circuit Opinions
Concerned Parents & Citizens for Continuing
Educ. at Malcolm X v. N.Y. City Bd. of Educ.,
629 F.2d 751 (2d Cir. 1980)

12, 13

Cosgrove v. Bd. of Educ.,
175 F. Supp. 2d 375 (N.D.N.Y. 2001)

11

D. v. Ambach,
694 F.2d 904 (2d Cir. 1982)

11

De Paulino v. N.Y. City Dep't of Educ.,
959 F.3d 519 (2d Cir. 2020)

3, 4

Gabel ex rel. L.G. v. Bd. of Educ.,
368 F. Supp. 2d 313 (S.D.N.Y. May 10, 2005)

Neske v. N.Y. City Dep't of Educ.,
No. 19-4068-cv, 2020 WL 5868279 (2d Cir.
Oct. 2, 2020)

8

111
T.Y. v. N.Y. City Dep't of Educ.,
584 F.3d 412 (2d Cir. 2009)

12

Tucker v. Bay Shore Union Free Sch. Dist.,
4

873 F.2d 563 (2d Cir. 1989)
Federal Court Opinions
Alamo Heights Indep. Sch. Dist. v. State Bd. of
Educ.,
790 F.2d 1153 (5th Cir. 1986)

11

United States Code
20 U.S.C. § 1400

2

20 U.S.C. § 1415

1

Other
Rule 44

1, 10, 12

1
PREAMBLE
Pursuant to Rule 44.2 of this Court, Petitioner
Rosa Elba Ventura De Paulino ("Petitioner")
respectfully petitions for a rehearing of the denial of
a writ of certiorari to review the judgment of the
United States Court of Appeals for the Second
Circuit.
In this matter, the Second Circuit's opinion
virtually eviscerates decades of case law pertaining
to Pendency placements under the stay-put provision
of the Individuals with Disabilities Education Act
("IDEA") and otherwise — case law that has
developed to protect the right of special education
students to remain in their then-current educational
setting while their parents' Due Process challenge to
a school district's Individualized Education Program
("IEP") is adjudicated' — in favor of a new rule that
benefits school districts to the detriment of the
special education students they are charged with
educating. This rule wholly contravenes the intent of
the IDEA to ensure that children who fall within the
purview of the statute are provided with a free
appropriate public education.

1 During the pendency of the due process review proceedings,
parents are entitled to have the child "stay put" in his or her
"current educational placement." 20 U.S.C. § 1415(j); Honig v.
Doe, 484 U.S. 305, 323, 325 (1988) (finding that in "the
language of [the stay put provision, Congress unequivocally,"
intended to "strip schools of the unilateral authority they had
traditionally employed" and that the provision "means what it
says").

2
PETITION FOR REHEARING
The original certiorari petition asked this Court
to resolve two issues: 1) Does a school district have
an affirmative obligation to provide pendencyrelated educational and support services to its
special education students under the Individuals
with Disabilities Act ("IDEA"), 20 U.S.C. § 1400, et
seq.; and 2) If a school district has such an
obligation, may the Parent of a special education
student procure the pendency services to which the
Student is entitled under the IDEA when the district
has failed to procure them?
The IDEA, known originally as the Education of
the Handicapped Act, was passed in order "to ensure
that all children with disabilities have available to
them a free appropriate public education that
emphasizes special education and related services
designed to meet their unique needs" Id. § 1400(c).
As reflected in the text of the provision and case
law, Congress' policy choice was that a child is
entitled to remain in his or her placement at public
expense during the Pendency of an IEP dispute,
regardless of the merit of the child's IEP challenge or
the outcome of the relevant proceedings.
It is clear that Congress very much meant to
strip schools of the unilateral authority they
had traditionally employed to exclude disabled
students . . . from school. Honig, 484 U.S. at 31112. A similar view of the provision was articulated
in Sch. Comm. of Burlington v. Dep't of Educ., 471
U.S. 359, 373 (1985).
In this case, the Second Circuit noted that "[i]t is
up to the school district," not the Parent, "to decide
how to provide that educational program [until the

3
IEP dispute is resolved], so long as the decision is
made in good faith. De Paulino v. N.Y. City Dep't of
Educ., 959 F.3d 519, 534 (2d Cir. 2020).
The Second Circuit ultimately held that parents
who unilaterally enroll their child in a new
private school and challenge the child's IEP are not
entitled to public funding for the new school during
the Pendency of the IEP dispute under the IDEA's
stay-put provision; nor are the parents entitled to
public funding for the new school during the
Pendency of the IEP dispute on the basis that
the educational program being offered at the
new school is substantially similar to the program
that was last agreed upon by the parents, and
the school district, at the previous school.2
The Second Circuit has turned the holding in
Honig on its head — Honig held that Congress
intended to strip schools of the unilateral authority
they had traditionally employed to exclude disabled
students . . . from school. The Second Circuit has
given back to the schools that which this Court
found Congress had taken away — unilateral
authority over the Pendency Process.
Regardless of whether the educational program
that a student is receiving at a new school is
substantially similar to the one offered at a previous
school, when Parents unilaterally enroll the Student
2 It is unclear how the public school district would be adversely
affected if the student's new school is substantially similar to
the student's old school — that is if the new school can
implement the student's IEP in the same manner as the old
school, and at the same cost, why would such a placement be
prohibited? This is exactly the type of placement that the IDEA
would seem to encourage — a placement made by a parent in
their child's best interest, with no additional cost or burden to
the public school.

4
at the new school for the subsequent school year,
they do so at their own financial risk. Id. .
The District Courts within the Second Circuit,
and more importantly, the NYS Department of
Education's State Review Officers ("SRO"s), have
interpreted the holding in the instant case to mean
that if a parent unilaterally moves a child from one
private school to another, Pendency can NEVER lie
at the second school unless and until there is an
unappealed administrative decision finding the
unilateral transfer to be appropriate.
Put another way, the Second Circuit's holding
stands for the proposition that a parent cannot
unilaterally transfer his or her child to a new school
and subsequently initiate an IEP dispute to argue
that the new school's services must be funded on a
pendency basis. Id. at 536. 3
Since the initial certiorari petition was
submitted, the number of State Review Officers who
have relied upon the Second Circuit's instant
decision to deny Pendency to special education
students has grown exponentially — to the detriment
of the students whom the stay-put provision was
This would not be the first time that the Second Circuit has
gone too far in penalizing a parent for their "unilateral"
placement of their child in IDEA matters. In Florence Cnty.
Sch. Dist. Four v. Carter, 510 U.S. 7, 114 S. Ct. 361 (1993), an
appeal from the Fourth Circuit, this Court addressed the
Second Circuit as follows, "Accordingly, we disagree with the
Second Circuit's theory that "a parent may not
obtain reimbursement for a unilateral placement if that
placement was in a school that was not on [the State's]
approved list of private" schools. Tucker v. Bay Shore Union
Free Sch. Dist., 873 F.2d 563, 568 (2d Cir. 1989) (internal
quotation marks omitted). Parents' failure to select a program
known to be approved by the State in favor of an unapproved
option is not itself a bar to reimbursement."
3

5
designed to protect. In case after the case, SROs are
reversing Impartial Hearing Officers' Pendency
Orders finding that once a Parent moves their child
from one private school to another, any claim to
Pendency is lost — perhaps for years.
As an SRO recently wrote in reversing an
Impartial Hearing Officer's finding4 of Pendency5,
"The district court has repeatedly
rejected the parent's claims regarding
the student's Pendency at iBrainfi, and
there are no intervening events such as
a subsequent pendency agreement of
the parties or a merits determination in
favor of the parent's unilateral
placement of the student at iBrain that
would warrant a new result." SRO
Decision No. 20-178.
In her Decision dated December 23, 2020, the
SRO continued,
"As a final matter, as mentioned above,
there
have
been
no
merits
determinations regarding the Student's
special education programming since
the unappealed June 2018 IHO
Decision for the 2017-18 school year
when the Student was attending iHope.
Each year, the Parent pursued
The State of New York has a two-tiered administrative review
process in IDEA matters.
5 SRO No. 20-178 was decided on or about December 23, 2020.
6 SRO Decision No. 20-178 involves a different student than in
the instant case, but the same private schools.
4

6
pendency claims seeking iBrain as the
Student's Pendency under new theories,
none of which, as of this appeal, have
succeeded.[7]
Given the outcome of the various
proceedings both at the administrative
and federal levels, pendency funding at
iBrain is unlikely to occur unless the
parents
favorable
achieve
a
determination on the merits of their
substantive
underlying
claims
regarding
FAPE
the
and
appropriateness of iBrain as a
unilateral placement. . . . I strongly
encourage the parents and their counsel
to desist with the baseless[8] pendency
disputes on the same facts and advance
the merits of the cases they have filed
to their conclusion rather than
accumulating additional unsuccessful
pendency determinations for successive
school years, particularly where the
Second
Circuit
has
essentially
foreclosed[9] the viability of a legal
strategy premised on establishing
Pendency at iBrain through a parent's

7 Mostly because of the holding by the Second Circuit in this
matter.
8 That any Pendency could be referred to as "baseless" should
be reason enough for this Honorable Court to hear this matter.
9 The perception that Second Circuit has essentially foreclosed
Pendency under any circumstances should be chilling to this
Court.

7
unilateral placement of a student at the
school." Id.
The SRO fails to recognize or intentionally
ignores the fact that the defendant school district,
the NYC Department of Education, appoints the
IHOs in the first instance, and only for the limited
purpose of determining Pendency. After determining
Pendency issues, the IHOs are divested of their
jurisdiction by the defendant school district and
ordered to "recuse" themselves. There can be no final
adjudication of a student's Due Process Complaint
unless and until the defendant school district reassigns an Impartial Hearing Officer for such
purpose.
Parents in New York City have no control over
the ability to achieve a favorable determination on
the merits of their substantive claims regarding
their child's FAPE and the appropriateness of a new
school as a unilateral placement. The only remedy
that they have had traditionally, on a real-time
basis, is Pendency. However, the Second Circuit's
opinion has severely eroded, if not foreclosed, the
possibility of Pendency in a great many cases.
Relying on the Second Circuit's holding in this
matter, the SRO in Decision No. 20-178 reversed a
Pendency Order of an IHO that found a student's
Pendency to be at the Student's new school. In his
Pendency Order, the IHO held in pertinent part:
"The stay-put provision was enacted as
a procedural safeguard . . . preventing
the school district from unilaterally
modifying a student's educational

8
program during the Pendency of an IEP
dispute.
It does not eliminate, however, the
school
district's
preexisting
and
independent authority to determine
how to provide the most-recentlyagreed-upon educational program.
It "is up to the school district," not the
Parent, "to decide how to provide that
educational program [until the IEP
dispute is resolved], so long as the
decision is made in good faith . . .
In this instance, the DOE points to
iHOPE, without evidence of either
continued
existence
or
Student
acceptance to the program.10 DOE,
therefore, attempts to alter the Student
program from the Pendency it argues
exists in the services and program at
iHOPE. In this case, the DOE offers an
existential program, which actually is
no program at all.
A Parent cannot unilaterally decide a
child's Pendency placement would be
better provided in another location and
10 Despite this finding, in reversing the IHO, the SRO in
Decision No. 20-178 held, "In any event, . . .the evidence in the
hearing record does not support a finding that iHope was not
available or that the district "refuse[d] or failed] to provide
pendency services as iHOPE" Neske v. N.Y. City Dep't of Educ.,
No. 19-4068-cv, 2020 WL 5868279, at *2 (2d Cir. Oct. 2, 2020)."

9
invoke the stay-put provision to force a
school district to pay via Pendency.
In this instance, the Student has
already been attending the iBRAIN
program for the 18-19 and 19-20 school
years. These school years are still in
various stages of litigation. DOE
certainly could have engaged the
iHOPE school and offered the Student
return via Pendency.
In this instance, a Pendency must be
established as a right of the Student.
Without evidence of a DOE offered
Pendency placement, the analysis
moves onto the substantially similar
analysis, which results in the iBRAIN
Student Pendency.
Regarding Pendency, I find the DOE
has failed to offer a program capable of
delivering Student Pendency Services
I
find
the
Parent
establishes
substantial similarity between the
services and supports of the iHOPE and
iBRAIN IEPs."11
Despite the well reasoned, well-thought-out
opinion above, the SRO reversed the IIIO's Pendency
Order. With no deference to the IHO, the SRO
applied the Second Circuit's holding in the instant
11 Hearing Officer's Pendency Order in IHO Case No. 196391 by
Impartial Hearing Officer Ajello.

- 10 case in a rigid, inflexible manner, leaving the
Student without Pendency — because, in 2018, the
Student's parents unilaterally moved the Student to
a new school, albeit a substantially similar, almost
identical school.
The SRO in Decision 20-178 went even further
than the Second Circuit in this case when it relied on
a subsequent Second Circuit Case, as follows:
"In Neske, the Second Circuit also
rejected the argument that the facts of
that matter fell under a footnote [65] in
Ventura de Paulino, where the Court
left open the question as to what would
happen if a student's prior nonpublic
school placement was not available to
provide pendency services and the
district either refused or failed to
provide pendency services (Neske, 2020
WL 5868279, at *2; Ventura de Paulino
959 F.3d at 534 n.65). The Court in
Ventura de Paulino cited a decision by
the Fourth Circuit Court of Appeals,
which held that 20 U.S.C. § 1415(j) does
not impose any affirmative obligations
on a school district to seek out
alternative
placements
when
a
student's
then-current
educational
placement is not functionally available
(Wagner., 335 F.3d at 301) . . .
In the Second Circuit, the Court's holding in the
instant matter is now being cited for the proposition
that a school district has no affirmative obligation to
establish Pendency for a special education student —

thereby foreclosing the possibility of Pendency, as
well as the prospect of Pendency, for special
education students for years.
THE PETITION FOR REHEARING
SHOULD BE GRANTED
While the Second Circuit may not have
previously addressed the specific issues presented
herein, case law is replete with examples of similar
cases or issues that have been decided. This Court,
and the Fifth Circuit, have established that a
parent's unilateral action in obtaining supplemental
or substitute care for a handicapped child in place of
that provided by the school district under the IEP
does not constitute a waiver of the right to
reimbursement. See Sch. Comm. of Burlington, 471
U.S. 359; Alamo Heights Indep. Sch. Dist. v. State
Bd. of Educ., 790 F.2d 1153, 1161 (5th Cir. 1986).
The purpose of the IDEA's Pendency provision is
to provide stability and consistency in the education
of a student with a disability. Honig, 484 U.S. 305.
The Pendency provision protects a student's
educational status quo while the parents and the
school fight out the legalities of the Student's
placement — the provision is student-focused, not
school district or parent-focused. See Cosgrove v. Bd.
of Educ., 175 F. Supp. 2d 375, 391 (N.D.N.Y. 2001).
The Pendency inquiry focuses on identifying the
Student's then-current educational placement. D. v.
Ambach, 694 F.2d 904 (2d Cir. 1982); Gabel ex rel.
L.G. v. Bd. of Educ., 368 F. Supp. 2d 313 (S.D.N.Y.
May 10, 2005).

- 12 In Gabel, the Court characterized the idea that
there was no Pendency placement for a student as
"an impossible result."
The substantial similarity doctrine, as applied to
Pendency, is based on the proposition that, as long
as the substance of a special education student's
educational Pendency program remains the same or
similar, there is no change of placement, and,
accordingly, there is no violation of the Pendency
Provision, or IDEA, more generally. Concerned
Parents & Citizens for Continuing Educ. at Malcolm
X v. N.Y. City Bd. of Educ., 629 F.2d 751, 754 (2d
Cir. 1980).
A crucial element of the rationale in Concerned
Parents is that "the term 'educational placement'
refers only to the general type of educational
program in which the child is placed." Id. at 753.
This definition of educational placement emphasizes
that it is the substance of the educational program
the child receives, not the school or school location,
that determines whether there has been a change of
placement when a parent changes the child's
enrollment. See T.Y. v. N.Y. City Dep't of Educ., 584
F.3d 412, 419-20 (2d Cir. 2009)(`" Educational
placement' refers to the general educational program
- such as the classes, individualized attention and
additional services a child will receive - rather than
the' bricks and mortar' of the specific school").
Applying the holdings of the preceding cases to
the instant matter should have resulted in a finding
that although the Student's enrollment at iBRAIN
changed where the educational placement was
implemented (bricks and mortar location), it did not
change the educational placement itself ( the
substance of the Student's program). Since there was

- 13 no change in the Student's educational placement,
the Petitioner remained eligible for, and should have
received, Pendency funding — there was no violation
of the IDEA. Concerned Parents & Citizens for
Continuing Educ. at Malcolm X, 629 F.2d at 754.
REASONS FOR REHEARING
A Petition For Rehearing should present
intervening circumstances of a substantial or
controlling effect or other substantial grounds not
previously presented. See Rule 44.2.
CONCLUSION
For the reasons set forth herein, the Petitioner
Rosa Elba Ventura De Paulino requests this
Honorable Court grant rehearing and her Petition
for a Writ of Certiorari.
Respectfully Submitted,

/s / Rory J. Bellantoni
Rory J. Bellantoni, Esq.
Brain Injury Rights Group, Ltd.
Attorney for Petitioner
300 East 95th Street, Suite 130
New York, NY 10128
(646) 850-5035
rory@pabilaw.org
Supreme Court Bar No. 283890

- 14 CERTIFICATE OF COUNSEL
I hereby certify that this Petition for Rehearing
is presented in good faith and not for delay and that
it is restricted to the grounds specified in Supreme
Court Rule 44.2.
/s/ Rory J. Bellantoni
Rory J. Bellantoni, Esq.
Brain Injury Rights Group, Ltd.
Attorney for Petitioner
300 East 95th Street, Suite 130
New York, NY 10128
(646) 850-5035
rory@pabilaw.org
Supreme Court Bar No. 283890

